2= - Zfs
IN THE

SUPREME COURT OF THE UNITED STATES

ALEX RAHMI

INDIVIDUALLY
PETITIONER

FILED
JUN 0 8 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

PILL & PILL, PLLC
RESPONDENT

On Petition for a Writ of Certiorari of the
State of West Virginia Supreme Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

September 18, 2020

1

Questions Presented
Statement of Appellate Turisdiction
I.

Appellate Jurisdiction is referred to power of Higher Court to revise lower's
court decision, based on discovery and final ruling of the case. United States
District Court has Appellate Jurisdiction authority to hear Criminal
Bankruptcy Fraud cases under Federal Law. Subsequently, Bankruptcy Court
can not overturn and overrule the Order of United States District Court
entered in Petitioner's Bankruptcy Case, and the Order of the United States
District Court would not be Newly Discovered Evidence.

Whistleblower Protection Act
II.

The Whistleblower Protection Act of 1989, 5 U.S.C. 2302(b) (8)-(9), Pub.L.
101-12 as amended, is a United States federal law that protects
whistleblowers (Petitioner) who provided and reported existance of an
activity constituting a violation of law, rules, regulations, mismanagement,
gross waste of funds and abuse of authority, pursuant to foreclosure Fraud
schemes of Petitioner's A. residence and B. business real estate assets in
Charles Town WV under federal rules and program.

2

PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully requests the issuance of a writ of Certiorari to review the
judgement of the State of West Virginia Supreme Court of Appeals.

IURISDICTION

The State of West Virginia Supreme Court of Appeals entered Judgement on January
9,2020 and The State of West Virginia Supreme Court of Appeals denied petition for
rehearing.

3

SUMMARY OF ARGUMENTS

A.
Loan Modification Repayment Program HAMP was denid and a
protection petition was filed with Bankruptcy Court on February 21, 2012.
The Federal Bankruptcy Court violates the whistleblower protection
Act when the Court authorities take retaliatory action against petitioner by
Foreclosing on whistleblower (Petitioner primary) Home, whereas Federal Court's
ultimate intention was for the Office of Attorney General West Virginia to obtain
State settlement and a class action settlement with Mortgage provider for other
West Virginia property owners whose homes were foreclosed by the mortgage
provider.

Petitioner is not a lawyer and does not have legal attorney education.

Reference to Memorandum Decision dated September 3, 2019, State
of West Virginia, Supreme Court Appeals, the Summary Judgement Order dated
August 24 2105 from chapter 7 bankruptcy are invalidated Pursuant to U.S. District
Court Order dated January 7, 2017, Petitioner's Bankruptcy Case was dismissed,
supported by FBI discovery of Bankruptcy Fraud by (retired) Trustee, and Creditor
attorney Bill Dobbs, under Privacy and Secrecy (Sealed) Rules.

Bankruptcy Court statement for 'Non payment Mortgage installments'
clause is designed to enforce liquidation of: petitioner's residence for class action
settlements and other settlements, otherwise class action settlement and other
settlements (penalties) entitlements would not be applicable and denied.

4

B.
Federal Rules and Bankruptcy Rules were not followed and
Bankruptcy Court err when liquidation of petitioner's business real estate was
arranged by unforeseen action of Bankruptcy Court, without filing an appeal with
U.S. District Court opposing the Order of Bankruptcy Court.

United States Congress introduced Bill H.R. 2743, Automobile Dealers
Economic Rights Restoration Act of 2009, to Restore the Economic Rights of
Automobile Dealers and for other purposes, Vacating Bankruptcy Court and
creditors forcing GM Dealerships out of business. On September 2, 2010 Petitioners
Automobile Dealership was foreclosed, and immediately $1,358 M Deficiency Lien
Judgement was recorded, constituting FBI discovery and multiple violations, leading
to U.S. Trustee resignation in December 2014, and certain attornies invlolved
received disqualifications and fines.

Petitioner as whistleblower, confirms liquidation and deficiency lien
judgement of his dealership real esate were a fruadulant scheme to liquidate and
foreclose on all other assets. Subsequently Complaint for temprorary and
permanent injunction were filed with Bankruptcy Court and Bankruptcy Trustee.

During 341 hearing on August 7, 2014 Mr. Martin Sheehan (Bankruptcy Trustee)
stated by authority granted by bankruptcy court, his law firm, Sheehan Nugett
would pursue claims for damages, and removing the lien judgement.

Soon after 341 hearing U.S. Trustee files a Criminal Bankruptcy Complaint
with indictment in the U.S. District Court against petitioner whistleblower. Soon
Bankruptcy Court enters an Order for Discovery on November 21, 2014, blocking
U.S. Trustee total liquidation plans, subsequently in December 15, 2014 U.S. Trustee
resigns from U. S. Trustee program.

5

The Petitioner has been affiliatted with various bankruptcies filed with
Bankruptcy Court of Northern District of West Virginia:

GENERAL BACKGROUND INFORMATION
Bon Air Partnership, seeked relief from creditor, filed petition on November
17, 2009 Case No.3:09-BK-002621. Bon Air Asset was sold and Deed was transfered
on Oct. 19,2010, and final distribution provided a surplus for Petitioner.
(!)■

(2). Alex Chevrolet Dealership, was operating successfully as Franchaised
Chevrolet Dealership in Charles Town, since 1986, for 23 years.
Principle factors leading to chapter 11 filing

As financial conditions of General Motors began to decline, GMAC financing moved
in State Court proceeding to repossess Alex Chevrolet business assets including:
Enforcing terms of UCC agreement to take control of GM's open account cash assets,
causing Alex Chevrolet not being able to provide payments for applicable taxes,
therefore dealer license was expired and Alex Chevrolet was denied to engage any
sales to retail customers.
Circuit Court of Jefferson County West Virginia, presiding by honorable Judge
Sander, Ordered Mediation.
During Mediation an agreement was entered and GMAC agreed:
Release $45.K from Alex Chevrolet proceeds in escrow,
Alex Chevrolet will obtain new dealer license by making Tax payments.
Alex Chevrolet will pay employee salaries and pay employee's FICA payments.
GMAC to relcaim all inventory of floor planned cars and trucks, waive all interest

6

payments keeper & attorney fees.
Thereafter Alex Chevrolet was forced to seek relief from GMAC aggressive behavior
by filing petition under chapter 11 for Bankruptcy protection in the Northern
District of West Virginia on January 7,2010 case No. 3:10-BK-0061.

During Bankruptcy Protection, GMAC filed and received adequate protection
payments as proposed, and in June 8, 2009 United States Congress introduced Bill
H.R. 2743 Automobile Dealers Economic Rights Restoration Act of 2009, to restore
automobile dealers Franchise agreements, Alex Chevrolet was enrolled in
Arbitration program, and on June 10, 2010 an Agreement and Settlement was
propsed by GM for Chevrolet Franchise Termination [Buy Back].

Significant Events during Reorganization
Under the terms of settlement agreement, GM offered Alex Chevrolet Lump Sum
amount of $240,000.00 towards termination of Franchise Rights, whereas GMAC by
Fraudulant scheme demanded $120,000.00 from the settlement funds, and continue
to forfeit the balance of cash assets open account assets for the amount of
$68,941.00.

(3). Universal Enterprises, Dealership real estate, seeked relief under Bankruptcy
Law, and Case No. 3:09-BK-02682 was recorded on December 16, 2009.

Personal Residence HAMP Modification Foreclosure Fraud Scheme

(4).
Petitioner was forced to seek personal chapter 11 bankruptcy protection on
Feburary 21, 2012 against unforeseen action of Foreclosure Fraud by GMAC
Mortgage, denying Petitioner's application for HAMP modification (on primary
Residence], and case No. 3:12-BK-200, was established by Bankruptcy Court.
7

Significant Event leading to Criminal Complaint during conversion to
chapter 7

On May 16, 2014 U.S. Trustee abused its authorrities and discretion by
enforcing petitioner's Chapter 11 (personal) Bankruptcy petition to Liquidation
under chapter 7, in pursuit of liquidating petitioner's all other personal assets
including, WaterTown N.Y. real estate, personal vehicles, and petitioner's
inheritance entitlments pending in Montgomery County Maryland Orphan's Court.

During May 16, 2014 Petitioner claims $ 1.358 M lien Judgement is a Fraud scheme,
immediately Bankruptcy Judge States: File a motion to open the files.

On August 7, 2014 during 341 Hearing, Complaint for Temproary and Permanent
Injunction was forwarded to chapter 7 Trustee, and Trustee offered legal
representation to remove the lien judgement and filing claims for damages.

This "Course of Action" by Chapter 7 trustee Martin Sheehan offering to provide
legal defence in removing the lien judgement and recovering settlement proceeds
(with Bon Air real estate) would have dismissed and ended the bankruptcy case,
without Petitioner's primary residence being foreclosed. However due to the
amount of Lien Judgement Fraud, FBI performed extensive discovery leading to a
trial (2016) relating to Bankruptcy Fraud against (retired) U.S. Trustee and lawyers
involved, and subsequently my Bankruptcy case was dismissed under totality of
circumstance, however due to GMAC mortgage Class Action settlements and fines
for the State Treasury, petitioner's home underwent foreclosure since foreclosure of
petitioner's home was on February 21, 2012 and GMAC mortgage on May 14, 2012 ,
filed for Bankrantcy reorganization.

8

Class Action GMAC Mortgage HAMP Fraud Settlements. Deficiency Lien
ludgement Sovereign Bank Fraud Settlement. Bankruptcy Criminal case with
enactment of Small Business Reorganiztlon Act 2019 (new Law), was
whistleblower Assignment, from 2010 to 2020.

Discussion

Chapter 11 Conversion
On May 8, 2010 Universal Ent. petition for Chapter 11 Re-organization was granted
by Bankruptcy Court. On May 19. 2010 Creditor's Appraiser confirmed assets Value
of $2,700,000.00 was pledged as security.

Business Foreclosure Fraud

On July 7, 2010 an Order was recorded by Sovereign Bank counsel Bill Dobbs,
under Chapter 7 Liquidation for Universal Ent., inconsistant with Bankruptcy
court's order dated May 8, 2010 granting conversion to Chapter 11 for
reorganization and inconsistant with Due Process of Bankrutpcy Law.

9

False Consent Order

At the heart of this complaint is petitioner's Core Business Assets including Real
Estate [Universal Ent.] in Foreclosure Fraud by Consent Order agreed by chapter 7
trustee and Sovereign Bank lawyer and the Bankruptcy Court had signed on:
(a)

Foreclosure liquidation and closure of petitioner's car dealership business
was totally Un-Constitutional under UNITED STATES [111th] CONGRESS
Bill 'H.R. 2743’ "Automobile Dealers Economic Rights Restoration Act 2009,
for other purposes".

[b]

Which were material to the foreclosure proceedings.

[c]

Which were made with the knowledge of Falsity.

[d]

Which were filed with the intent of misleading the courts and opposing
parties into relying upon them.

[e]

Which resulted injury to Petitioner's chapter 11 Bankruptcy reorganization
plan.

[f]

which resulted a desired outcome in Foreclosure Fraud causing
substantial injury to petitioner including loss of all business assets.

[g]

Injury caused by Foreclosure Fraud of petitioner’s business in not reasonably
aviodable.

[h]

Foreclosure Injury is not outweighted by Countervailing benefits to
Petitioner.

10

Conclusion

Petitioner (whistleblower] Alex Rahmi respectfully requests Relief, including
substantial losses due to delibrate and reckless disregard of regulations by U.S.
Trustee and Sovereign Bank and Bankruptcy Court pursuant to Class Action
settlements denied to dismiss petitioners bankruptcy case, causing:

Loss of Business capital assets, business real estate assets, inventories, goodwill,
cilents, Rental Car business, body shop business, real estate Watertown NY, TD
Ameritrade retirement account, personal vehicles.

Loss of Personal creditability, honest business dealings, personal character send to
jail.
Loss of personal assets, Monies and liquid funds at MVB bank.

Mental disorders, near death experience under multiple circumstances, panic
disorder, attacks of anxiety, paraniod personality disorder.

11

At 66 years of age, petitioner is praying for receiving ownership of old residence
with 15 acers of land, together with petitioner's personal furnishings, belongings,
and collection of arts, persian rugs and paintings, and other personal items and
seeking representation by Federal Public Defender, Mr. Richard Walker (offices in
Clarksburg WV) for final settlement at the lower Court.

Respectfully Submitted

Alex Rahmi
P.0. Box 4295, Frederick MD 21705
(681) 242 7181 alexrahmi@gmail.com

Certificate of Service
Petitioner Alex Rahmi certifies that 3 copies of foregoing is forwarded by 1st class
mail to the following:

J. Mark Sutton
125 E. Burke Street,
Martinsburg, WV 25401
Counsel for Pill & Pill LLC

12

